Supreme Court, U.S.
FILED

427

No.

JUN I 0 2021
OFFICE OF THE CLERK

)

SUPREME COURT OF THE UNITED STATES

Bin Yang
Petitioner
vs.
MEDICAL BOARD OF CALIFORNIA
Respondent

On Petition for a Writ of Certiorari to
The Supreme Court of California
PETITION FOR WRIT OF CERTIORARI

Bin Yang
P.O. Box 14
Beverly Hills, CA 90213
310-668-1828

l
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

I. Questions Presented
1. Petitioner’s medical education exceeds the requirement of California Business
and Professional Code 2085-2089 and approved by UCLA, Harvard and Baylor
medical schools. Is it fraud that Medical Board of California (Respondent) turn
Petitioner’s medical education into nursing through “their expert” who does not
know the difference between medical and nursing internships?
2. Is it fraud that an attorney stole Petitioner’s money, never served Respondent,
and caused her case dismissed for “no action” with tremendous personal and
family losses? And Petitioner is not his only victim.
3. There is NO time limit to set aside a judgement by fraud per Rule 60 b (3). Is it
constitutional that the Supreme Court of California disregards the frauds and
deprives Petitioner’s rights granted by Amendment XIV?
4. Is it constitutional for licensing agents to set innocent up with “their expert,”
AGAIN AND AGAIN?
5. Is it constitutional for the justice system to actively and inactively assist the
government agencies to set innocents up, legalize their crime, and get paid,
AGAIN AND AGAIN?

2
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

II. Table of Contents
I.

Question Presented

2

II.

Table of Contents

3

III.

Table of Authorities

4

IV.

Petition for Writ of Certiorari

5

V.

Opinions Below

5

VI.

Jurisdiction

5

VII.

Constitutional Provisions Involved

5

VIII.

Statement of the Case

10

1. Background Fact
2. A Setup + A Fraud & Abandonment
3. Direct Appeal
IX.

14

REASONS FOR GRANTING THE WRIT
A. Stop government agencies from setting innocent up with
“their experts”, depriving innocents’ life and liberty, and harming their
family, AGAIN AND AGAIN.
B. Stop the crime-making machine that government agencies,
the justice system and crook attorneys have developed. Ensure
three branches check each other and safeguard due process of law
and equal protection of the laws.

X.

CONCLUSION

16

XI.

DECLARATION OF BIN YANG

17

XII.

PROOF OF SERVICE

18

XIII.

APPENDIX

19

3
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

III. Table of Authorities
Cases

Page

Hazel-Atlas Glass Co. v. Hartford Empire Co. 322 U.S. 238 (1944)

13, 15

Maples v. Thomas, 132 S. Ct. 912 (2012)

13, 15

Florida v Stephen Diaco, The Florida Bar File No. 2013-10,735 (13F)

16

People v. Scruggs, 52 P.3d 237, 241 (Colo. 2002)

16

Yang vs. the Board of Register Nursing # BS174436

11, 15

Statutes
5

28U.S.C. §1257

Constitutional Provisions

Federal Rule 60 b (3)

2,5,13,15

United States Constitution, Amendment XIV

2, 5, 15

United States Constitution, Articles 1-3

6, 16

Acceptance Letters from Harvard and Baylor med schools

6, 11

A support Letter from UCLA medical school

6, 11

CA Business and Professional Code 2085~2089

2, 6, 10, 11,
12, 14

California Government Code Disciplinary Proceedings 19572

9,16

4
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

IV. Petition for Writ of Certiorari
Bin Yang, a resident of Los Angeles County, respectfully petitions this court for a
writ of certiorari to review the judgment of the Supreme Court of California.

V. Opinions Below
The opinion of the Supreme Court of CA is unpublished. The Supreme Court of
California denied Petitioner's petition for review on April 22, 2021. That order is attached
at Appendix list (App C)
VI. Jurisdiction
The date on which the Supreme Court of CA decided Petitioner’s case was April
22, 2021. A copy of that decision appears at Appendix A. Bin Yang invokes this Court's
jurisdiction under 28 U.S.C. § 1257, having timely filed this petition during the COVID-19
pandemic for a writ of certiorari within 150 days of the Supreme Court of California’s
judgment.

VII. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Federal Rule 60— Relief from Judgment or Order
(a) Clerical Mistakes. Clerical mistakes in judgments, orders or other parts of the record
and errors therein arising from oversight or omission may be corrected by the court at
any time of its own initiative or on the motion of any party and after such notice, if any,
as the court orders. During the pendency of an appeal, such mistakes may be so
corrected before the appeal is docketed in the appellate court, and thereafter while the
appeal is pending may be so corrected with leave of the appellate court.
(b) Mistakes; Inadvertence; Excusable Neglect; Newly Discovered Evidence; Fraud, etc.
On motion and upon such terms as are just, the court may relieve a party or a party's
legal representative from a final judgment, order, or proceeding for the following
reasons:
(3) fraud (whether heretofore denominated intrinsic or extrinsic), misrepresentation, or
other misconduct of an adverse party.
5
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

United States Constitution, Amendment XIV:
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of life
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

United States Constitution, Articles 1-3:
The first three articles of the Constitution establish three branches of government
with specific powers: Executive (headed by the President), Legislative (Congress) and
Judicial (Supreme Court). Power is separated and shared. Each branch can check
other branches’ actions or balance the actions of other branches with their own actions.

Acceptance Letters from Harvard and Baylor med schools (App E)
A support Letter from UCLA medical school (App E)

CA Business and Professional Code 2085~2089
2085. (a) Notwithstanding Section 2084, a graduate of an approved medical school
located in the United States or Canada who has graduated from a special medical
school program that does not substantially meet the requirements of Section 2089 with
respect to any aspect of curriculum length or content may be approved by the Division
of Licensing if the division determines that the applicant has otherwise received
adequate instruction in the subjects listed in subdivision (b) of Section 2089.
"Adequate instruction" means the applicant has received instruction adequate
to prepare the applicant to engage in the practice of medicine in the United
States. This definition applies to the sufficiency of instruction of the following courses:
(1) Anatomy, including gross anatomy, embryology, histology, and
neuroanatomy.
(2) Bacteriology and immunology.
(3) Biochemistry.
(4) Pathology.
(5) Pharmacology.
(6) Physiology.
2087. If any medical school is not approved by the Division of Licensing or any
applicant for licensure is rejected by it, then the school or the applicant may commence
an action in the superior court as provided in Section 2019 against the division to
compel it to approve the school or to issue the applicant a certificate or for any other
6
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

appropriate relief. If the applicant is denied a certificate on the grounds of
unprofessional conduct, the provisions of Article 12 (commencing with Section 2220)
shall apply. In such an action the court shall proceed under Section 1094.5 of the Code
of Civil Procedure, except that the court may not exercise an independent judgment on
the evidence. The action shall be speedily determined by the court and shall take
precedence over all matters pending therein except criminal cases, applications for
injunction, or other matters to which special precedence may be given by law.
SECTION 2089
2089. (a) Each applicant for a physician's and surgeon's certificate shall show by official
transcript or other official evidence satisfactory to the Division of Licensing that he or
she has successfully completed a medical curriculum extending over a period of at
least four academic years, or 32 months of actual instruction, in a medical school or
schools located in the United States or Canada approved by the division, or in a medical
school or schools located outside the United States or Canada which otherwise meets
the requirements of this section. The total number of hours of all courses shall consist of
a minimum of 4,000 hours. At least 80 percent of actual attendance shall be required. If
an applicant has matriculated in more than one medical school, the applicant must have
matriculated in the medical school awarding the degree of doctor of medicine or its
equivalent for at least the last full academic year of medical education received prior to
the granting of the degree.
(b) The curriculum for all applicants shall provide for adequate instruction in the
following subjects:
Alcoholism and other chemical substance dependency, detection and treatment.
Anatomy, including embryology, histology, and neuroanatomy.
Anesthesia.
Biochemistry.
Child abuse detection and treatment.
Dermatology.
Geriatric medicine.
Human sexuality.
Medicine, including pediatrics.
Neurology.
Obstetrics and gynecology.
Ophthalmology.
Otolaryngology.
Pain management and end-of-life care.
Pathology, bacteriology, and immunology.
Pharmacology.
Physical medicine.
Physiology.
Preventive medicine, including nutrition.
Psychiatry.
Radiology, including radiation safety.
Spousal or partner abuse detection and treatment.
Surgery, including orthopedic surgery.
7
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

Therapeutics.
Tropical medicine.
Urology.
(c) The requirement that an applicant successfully complete a medical curriculum that
provides instruction in pain management and end-of-life care shall only apply to a
person entering medical school on or after June 1, 2000.
2089.5.
(a) Clinical instruction in the subjects listed in subdivision (b) of Section 2089 shall
meet the requirements of this section and shall be considered adequate if the
requirements of subdivision (a) of Section 2089 and the requirements of this section are
satisfied.
(b) Instruction in the clinical courses shall total a minimum of 72 weeks in length.
(c) Instruction in the core clinical courses of surgery, medicine, family medicine,
pediatrics, obstetrics and gynecology, and psychiatry shall total a minimum of 40 weeks
in length with a minimum of eight weeks instruction in surgery, eight weeks in medicine,
six weeks in pediatrics, six weeks in obstetrics and gynecology, a minimum of four
weeks in family medicine, and four weeks in psychiatry.
(d) Of the instruction required by subdivision (b), including all of the instruction
required by subdivision (c), 54 weeks shall be performed in a hospital that sponsors the
instruction and shall meet one of the following:
(1) Is a formal part of the medical school or school of osteopathic medicine.
(2) Has a residency program, approved by the Accreditation Council for Graduate
Medical Education (ACGME) or the Royal College of Physicians and Surgeons of
Canada (RCPSC), in family practice or in the clinical area of the instruction for which
credit is being sought.
(3) Is formally affiliated with an approved medical school or school of osteopathic
medicine located in the United States or Canada. If the affiliation is limited in nature,
credit shall be
given only in the subject areas covered by the affiliation agreement.
(4) Is formally affiliated with a medical school or a school of osteopathic medicine
located outside the United States or Canada.
(e) If the institution, specified in subdivision (d), is formally affiliated with a medical
school or a school of osteopathic medicine located outside the United States or
Canada, it shall meet the following:
(1) The formal affiliation shall be documented by a written contract detailing the
relationship between the medical school, ora school of osteopathic medicine, and
hospital and the responsibilities of each.
(2) The school and hospital shall provide to the board a description of the clinical
program. The description shall be in sufficient detail to enable the board to determine
whether or not the program provides students an adequate medical education. The
board shall approve the program if it determines that the program provides an adequate
medical education. If the board does not approve the program, it shall provide its
reasons for disapproval to the school and hospital in writing specifying its findings about
each aspect of the program that it considers to be deficient and the changes required to
obtain approval.
8
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

1

(3) The hospital, if located in the United States, shall be accredited by the Joint
Commission on Accreditation of Hospitals, and if located in another country, shall be
accredited in accordance with the law of that country.
(4) The clinical instruction shall be supervised by a full-time director of medical
education, and the head of the department for each core clinical course shall hold a full­
time faculty appointment of the medical school or school of osteopathic medicine and
shall be board certified or eligible or have an equivalent credential in that specialty area
appropriate to the country in which the hospital is located.
(5) The clinical instruction shall be conducted pursuant to a written program of
instruction provided by the school.
(6) The school shall supervise the implementation of the program on a regular basis,
documenting the level and extent of its supervision.
(7) The hospital-based faculty shall evaluate each student on a regular basis and shall
document the completion of each aspect of the program for each student.
(8) The hospital shall ensure a minimum daily census adequate to meet the
instructional needs of the number of students enrolled in each course area of clinical
instruction, but not less than 15 patients in each course area of clinical instruction.
(9) The board, in reviewing the application of a foreign medical graduate, may require
the applicant to submit a description of the clinical program, if the board has not
previously approved the program, and may require the applicant to submit
documentation to demonstrate that the applicant's clinical training met the requirements
of this subdivision.
(10) The medical school or school of osteopathic medicine shall bear the reasonable
cost of any site inspection by the board or its agents necessary to determine whether
the clinical program offered is in compliance with this subdivision.

California Government Code Disciplinary Proceedings 19572
Each of the following constitutes cause for discipline of an employee, or of a
person whose name appears on any employment list:
(a) Fraud in securing appointment.
(b) Incompetency.
(c) Inefficiency.
(d) Inexcusable neglect of duty.
(e) Insubordination.
(f) Dishonesty.
(g) Drunkenness on duty.
(h) Intemperance.
(i) Addiction to the use of controlled substances.
(j) Inexcusable absence without leave.
9
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

(k) Conviction of a felony or conviction of a misdemeanor involving moral turpitude. A
plea or verdict of guilty, or a conviction following a plea of nolo contendere, to a charge
of a felony or any offense involving moral turpitude is deemed to be a conviction within
the meaning of this section.
(l) Immorality.
(m) Discourteous treatment of the public or other employees.
(n) Improper political activity.
(o) Willful disobedience.
(p) Misuse of state property.
(q) Violation of this part or of a board rule.
(r) Violation of the prohibitions set forth in accordance with Section 19990.
(s) Refusal to take and subscribe any oath or affirmation that is required by law in
connection with the employment.
(t) Other failure of good behavior either during or outside of duty hours, which is of such
a nature that it causes discredit to the appointing authority or the person’s employment.
(u) Any negligence, recklessness, or intentional act that results in the death of a patient
of a state hospital serving the mentally disabled or the developmental^ disabled.
(v) The use during duty hours, for training or target practice, of any material that is not
authorized for that use by the appointing power.
(w) Unlawful discrimination, including harassment, on any basis listed in subdivision (a)
of Section 12940, as those bases are defined in Sections 12926 and 12926.1, except as
otherwise provided in Section 12940, against the public or other employees while acting
in the capacity of a state employee.
(x) Unlawful retaliation against any other state officer or employee or member of the
public who in good faith reports, discloses, divulges, or otherwise brings to the attention
of, the Attorney General or any other appropriate authority, any facts or information
relative to actual or suspected violation of any law of this state or the United States
occurring on the job or directly related to the job.

VIII. STATEMENT OF THE CASE
No one would argue medical education with UCLA, Harvard and Baylor medical
schools and California Business and Professional Code 2085-2089 that sets the
requirement of medical training and internship. In case an issue emerges, attorneys

10
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

ought to protect their clients’ rights, and the justice system should check other branches
and ensure equal protection of Law. However, the case presents a brutal reality.
1. Background
Petitioner graduated from the medical school at Fudan University, a top 3 med
school in China and had taken extra nursing training due to Chinese Government
agenda. Her medical education exceeds the requirement of CBPC 2085-2089
Harvard, Baylor and UCLA med schools have accepted or supported her (App. E).
Petitioner received her California training permit from 2003 to 2005 per CBPC
2085-2089 and finished 1-year residency training in California in 2006 and had a PGY2
in rehab medicine offer from Harvard med school in 2006 (App. E). However, her life
and career were soon upside down.
2. A Setup + A Fraud & Abandonment
On March 30, 2005, Petitioner returned to Lubbock, TX from Houston via
Southwest Airlines and asked for a blanket. Because the attendant did not respond to
her request three times, Petitioner pushed her right forearm for attention, which was
common in China where Petitioner grew up. However, the attendant later claimed that
Petitioner punched in her stomach, made her fall into a cabinet and intended to harm
her. Petitioner’s attorney advised her to plead guilty since she had "no witness.” She
was also charged for 70% of the liability for being rear-ended in 1997 at Amarillo TX, a
nearby city of the same district.
In fact, the Traumatic Brain Injury Petitioner suffered in the auto-accident in 1997
was her best witness-- she could not have the strength to do what she was accused of
(the discovery and evidence are included in the PETITION FOR WRIT OF
11
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

CERTIORARI Yang vs the Board of Registered Nursing). The airport police report
various tests, and testimonials further support Petitioner’s innocence. However, none of
her attorneys asked about her head injury. No tests ordered before her attorney pushed
her to plead guilty. The attorney also assumed another charge without verifying with
Petitioner. Petitioner could not link her head injury residual with her innocence until 313-2018 at the hearing with the Board of Registered Nursing.
Because of the wrongful charge in TX, Petitioner lost her PGY2 training at
Harvard medical school. Harvard medical school could easily help Petitioner find the
link, but they refused to talk to her even she went to Boston three times. Medical Board
of California (Respondent) refused to renew Petitioner’s training permit in 2006, which
caused her lost PGY2 training at Loma Linda medical school in 2007. Respondent
offered Petitioner to withdraw her application, and Petitioner refused.
In 2008, Respondent forced Petitioner to have her medical education evaluated
by the International Education Research Foundation (IERF). Petitioner did not think that
IERF would dare to go against CBPC 2085-2089, top medical schools and her 1-year
training in California. But IERF DARE! Later at the hearing, Petitioner also found that
IERF consultant could not tell the difference between medicine and nursing internship.
Respondent denied Petitioner’s training permit in 2011 after they successful
turned Petitioner’s medical education into nursing through “their expert.” Respondent
also accused Petitioner of the wrongful charge in TX and advertising herself as a MD on
her website while Petitioner’s business was leadership and team development.
Petitioner hired attorney Steven Simas (Simas) to protect her rights. However,
Simas only stole her money, filed a petition for Writ of Mandamus, never served
12
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

Respondent, abandoned Petitioner after she ran out of money, and caused her case
dismissed for “no action” on August 23, 2017. Petitioner only discovered the dismissal
in October 2018 after she filed a Petition for Writ of Mandamus at the Superior Court of
Los Angeles on September 12, 2018. Petitioner later found she is not his only victim.
There is NO time limit to set aside a judgement by fraud per Rule 60 b (3) [HazelAtlas Glass Co. v. Hartford Empire Co. 322 U.S. 238 (1944)]. No innocent should be
deprived rights due to his or her attorney’s abandonment and fraud [Maples v. Thomas,
132 S. Ct. 912 (2012)]. Petitioner presented fraud and abandonment as well as her
excellence, innocence, and vulnerabilities to the court at Los Angeles. The superior
court judge (SCJ) said it was Sacramento’s case. Thus, Petitioner also requested the
Superior Court of Sacramento to reinstate her case. However, both courts refused to
reinstate her case. The Superior Courts of Los Angeles issued tentative ruling on
February 14, 2019 and entered its judgement on May 13, 2019 (App. B).
3. Direct Appeal
Petitioner submitted notice to appeal on April 2, 2019 and was told that California
legislature had changed the law. Petitioner filed an Extraordinary Writ at the 2nd Court
of Appeal (COA) on June 27, 2019 and submitted additional evidence. COA denied the
Extraordinary Writ on Feb 21, 2020. Petitioner submitted 3 motions to reconsider with
more evidence of serial fraud of Simas, bias of the same SCJ in Yang v. Board of
Registered Nursing, and the impact to society. Still, COA denied the first two motions
and simply returned the third (App B).
Petitioner filed Writ of Mandate at the Supreme Court of California on July 16
2020, which was sent back to COA and got denied again. Petitioner did not notice the
13
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

case number change when filed a Petition for Review and Application for Relief from
Default. The clerk L. Calanoc at the Supreme Court of California knowingly held the
notice of the wrong case number till the last day that the Supreme Court of California
had jurisdiction over Petitioner’s case to kick Petitioner out of the Supreme Court (App
E). Petitioner reported the fraud to Justice. However, the attorney at the Supreme
Court of California only reiterated that they “had lost jurisdiction.”
In October 2020, Petitioner realized that her parents have been indirect victims of
Respondent. Her mother died on Dec. 1st, 2018, less than 2 months after she learned
in October 2018 that Petitioner’s initial case with Respondent was dismissed on August
23, 2017 for “no action.” Petitioner filed her 2nd Petition for Writ of Mandate at the
Supreme Court of California on March 5, 2021. Again, the case was sent back to COA
and got denied. Due to Petitioner’s competitors intensive hacking, Petitioner could not
file Petition for Review within 10 days after COA’s denial. Petitioner filed her Petition for
Review and Application of Relief from Default on the 14th day. The Supreme Court of
California simply denied Application of Relief from Default (App. C)

IX. REASONS FOR GRANTING THE PETITION
A. Stop government agencies from setting innocent up with “their experts”,
depriving innocents’ life and liberty, and harming their family, AGAIN AND
AGAIN.
B. Stop the crime-making machine that government agencies, the justice
system and crook attorneys have developed. Ensure three branches check
each other and safeguard due process of law and equal protection of the laws.
This is one out of a million cases. Petitioner’s education not only exceeds the
requirement of CBPC 2085-2089 but also has been approved or supported by UCLA,
14
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

Harvard and Baylor medical schools (App. E). In addition, she recovered herself from
the Traumatic Brain Injury, passed medical licensing examinations, turned many
impossible possible at the clinics, and received excellent letters of recommendation.
However, Respondent abused its authority, set Petitioner up with “their expert”
who could not tell the difference between medical and nursing internship but was willing
to say anything according to Respondent’s desire. Simas made the case more tragic
with his fraud and abandonment. Still, Petitioner found the best witness to prove her
innocence in 2018, discovered the fraud of Simas, and learned to go to the court to
pursue justice herself.
Nevertheless, there is NO time limit to set aside a judgement by fraud per Rule
60 b (3) [Hazel-Atlas Glass Co. v. Hartford Empire Co. 322 U.S. 238 (1944)]. No
innocent should be deprived rights due to his or her attorney’s abandonment and fraud
[Maples v. Thomas, 132 S. Ct. 912 (2012)]. However, neither SCJ at Los Angeles nor
Sacramento reinstate her case. The SCJ at Los Angeles is the same SCJ in the
PETITION FOR WRIT OF CERTIORARI against the Board of Registered Nursing.
DOA simply ignored the law violation and fraud of Respondent and Simas and
deprive Petitioner’s rights granted by Amendment XVI in the face of Petitioner’s
tremendous personal and family losses. The Supreme Court of California refused to
stop the fraud and defend justice, which is equal to giving them its permission.
This is not the first time for CA government licensing agencies to set innocent up
through “their expert,” and the same legal system again helped to legalize the crime and
get paid. More details are included in the PETITION FOR WRIT OF CERTIORARI
Yang vs the Board of Registered Nursing.
15
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

The government is set up for the people and by the people. As a government
licensing agent, Respondent at least should not violate the CA Government Code
19572. As officers of the court, DAG and judges at different levels have more reasons
to check other branches and defend the Constitution per United States Constitution
Articles 1-3.
Florida Supreme Court disbarred Stephen Diaco and 3 other attorney for DUI set
up [Florida v Stephen Diaco The Florida Bar File No. 2013-10,735 (13F)]. Colorado
disbarred attorneys for abuse [People v. Scruggs, 52 P.3d 237, 241 (Colo. 2002)]. What
DAG and judges at different levels have done is far worse than a DUI setup and abuse.
This case presents this Court with an opportunity to reinforce equal law
protection, stop government agencies from setting innocent up through “their experts,”
stop the crime-making machine that government agencies, the justice system and crook
attorneys have developed, and ensure all branches function per constitution. Absent
intervention by this Court, the existing crime-making machine will destroy the
Constitution and Democracy that this nation has spent the past 245 years developing.

X. CONCLUSION
For the foregoing reasons, Petitioner respectfully requests that this Court issue a
writ of certiorari to review the judgment of the Supreme Court of Appeals.
DATED this 10th day of June, 2021.
Respectfully submitted
1

&

pin Yang
/7
P.O. Box 14, Beverly Hills, CA 90213

310-668-1828
16
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

DECLARATION OF BIN YANG
I, Bin Yang, declare:
I am above 18 years old, a party with a beneficial interest in the case. I have the
personal knowledge of the matters set forth in this Declaration and, if called as a
witness, could and would testify truthfully and competently thereto.

I declare under the penalty of perjury under the laws of the State California the
foregoing is true and correct and that the declaration was executed on June 10, 2021,
at Los Angeles, CA.

Date & Time:
6/10/2021

Bin Yang

17
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Medical Board of California

